No.

IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY CARTER
(Your Name)

— PETITIONER

VS.
THE STATE OF TEXAS

— RESPONDENT(S)

PROOF OF SERVICE
ANTHONY CARTER
, do swear or declare that on this date,
AUGUST 9
, 20
, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR-LEAVE TO PROCEED-IN FORMA PAUPERIS
■and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

The names and addresses of those served are as follows:
State Prosecuting Attorney
Lubbock County District Attorney
P.0. Box 13046

i

P.O. Box 10536

Austin, Texas 78711

Lubbock, Texas 79408

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

August 9
i

(Signature)

